1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004

Paul D. Clement
To Call Writer Directly:
(202) 389-5000
paul.clement@kirkland.com

(202) 389-5000

Facsimile:
(202) 389-5200

www.kirkland.com

September 14, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: AMN Services, LLC v. Clarke, No. 21-296
Dear Mr. Harris:
On September 13, 2021, this Court docketed respondents’ waiver of their right
to respond to petitioner’s petition for writ of certiorari in the above-captioned case.
On behalf of petitioner, I write to inform the Court that, unless the Court calls for a
response to the petition before September 29, 2021 (thereby extending the deadline
for briefs amici curiae), the United States Chamber of Commerce, the American
Staffing Association, the National Association of Travel Healthcare Organizations,
and the Atlantic Legal Foundation each have committed to file a brief amicus curiae
in support of the petition on or before that date. Petitioner expects that additional
amici will also file on or before that deadline to underscore the importance of
reviewing the Ninth Circuit’s erroneous decision. Petitioner respectfully requests
that this letter be distributed with the petition for writ of certiorari.

Sincerely,

Paul D. Clement
Counsel for Petitioner
cc: Counsel of Record

Beijing

Boston

Chicago

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

San Francisco

Shanghai

